CERTIFICATE OF SERVICE

I, Brett Griffis, hereby certify that 1 unbound and
40 copies of the foregoing Brief for Petitioner and Joint
Appendix in 19-511, Facebook, Inc. v. Noah Duguid,
individually and on behalf of himself and all others
similarly situated, and United States of America, were
sent via Next Day Service to the U.S. Supreme Court,
and Next Day and e-mail service to the following
parties listed below, this 4th day of September, 2020:

Sergei Lemberg

Lemberg & Associates LLC
43 Danbury Road

Wilton, CT 06897

(203) 653-2250
slemberg@lemberglaw.com

Counsel for Respondent Noah Duguid

Jeffrey Wall

Acting Solicitor General of the United States
Room 5616

Department of Justice

950 Pennsylvania Ave., N.W.

Washington, DC 20530-0001

(202) 514-2217
SupremeCtBriefs@USDOJ.gov

Counsel for Respondent United States
Paul D. Clement
Counsel of Record
Devin S. Anderson
Kasdin M. Mitchell
Lauren N. Beebe
Kirkland & Ellis LLP
1301 Pennsylvania Ave., NW
Washington, DC 20004
(202) 389-5000
paul.clement@kirkland.com

Andrew B. Clubok
Roman Martinez

Susan E. Engel

Samir Deger-Sen
Gregory B. in den Berken
Latham & Watkins LLP
555 Eleventh Street, NW
Suite 1000

Washington, DC 20004

Counsel for Petitioner
All parties required to be served have been served.

I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on September 4, 2020.

/

Vat Griffis

Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.

Date: Sy g lin ba FZ 2680
bh WS. Feely
Notary Public

[seal]

  
 

g: \ JOHN D. GALLAGHER
tr] Notary Public, State of Ohio
My Commission Expires

vruai y 1,993
